   August 9, 2002




Defense
Infrastructure
Bulk Fuel Infrastructure Military
Construction and Maintenance,
Repair, and Environmental Project
Review Process: Navy
(D-2002-137)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or
  fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DESC                  Defense Energy Support Center
DLA                   Defense Logistics Agency
FISC                  Fleet and Industrial Supply Center
MILCON                Military Construction
MR&E                  Maintenance, Repair, and Environmental
NAS                   Naval Air Station
NAVPETOFF             Navy Petroleum Office
OPNAV                 Naval Operations
         Office of the Inspector General of the Department of Defense
Report No. D-2002-137                                                     August 9, 2002
 (Project No. D1999CG-0088.008)

   Bulk Fuel Infrastructure Military Construction and Maintenance,
      Repair, and Environmental Project Review Process: Navy

                                  Executive Summary

Who Should Read This Report and Why? This report should be read by DoD
officials responsible for bulk fuel-related military construction and maintenance, repair,
and environmental project requirements. It addresses the need for proper validation of
military construction and maintenance, repair, and environmental project requirements.

Background. This report is one in a series about DoD bulk fuel storage and delivery
systems infrastructure requirements. The Defense Energy Support Center, Defense
Logistics Agency, provides fuel to DoD customers and is responsible for budgeting and
funding military construction and maintenance, repair, and environmental projects at all
DoD fuel terminals.

Results. Although the 4 bulk fuel-related military construction and 72 maintenance,
repair, and environmental projects valued at $98.3 million were valid requirements, the
Navy did not properly validate and prioritize the requirements for each project in
accordance with Navy and DoD guidance. The absence of validation reviews at the
installation, major claimants and Service Control Point levels for all projects increased
the risk of the Navy submitting bulk fuel-related military construction projects that are
incorrectly prioritized, and bulk fuel-related maintenance, repair, and environmental
projects with incorrect requirements and priorities to the Defense Energy Support
Center for funding. Establishing policies and procedures to properly review, validate,
and prioritize Navy bulk fuel-related military construction and maintenance, repair, and
environmental project requirements should minimize the risk of submitting incorrect
project requirements and priorities to the Defense Energy Support Center for funding.
(See the Finding section for the detailed recommendations.)

Management Comments and Audit Response. The Navy Petroleum Office stated it
did not have to follow the procedures in the Facilities Projects Manual for fuel-related
military construction and maintenance, repair, and environmental projects funded by
Defense Logistics Agency, and that project validations were adequately documented.
Further, there was no need to prioritize projects and data call response letters and
e-mail communications provide adequate documentation of project validation. We
disagree with the Navy because the procedures in the Facilities Projects Manual apply
to all projects regardless of method of accomplishment, project files did not include
written documentation of projects validation, and Defense guidance requires the Navy
to prioritize projects prior to submission to the Defense Energy Support Center. The
Navy did not provide comments on recommendations to improve project validation at
the installation and major claimant levels. We request the Navy provide additional
comments on how it will improve validation and prioritization procedures at the
installation, major claimant and Service Control Point levels. Comments are requested
by September 9, 2002. A discussion of the management comments is in the Finding
section of the report, and the complete text is in the Management Comments section.




                                          ii
Table of Contents

Executive Summary                                                              i

Background                                                                     1


Objectives                                                                     2


Finding
     Validation of Bulk Fuel Storage Military Construction and Maintenance,
          Repair, and Environmental Requirements                               3

Appendixes
     A. Scope and Methodology
         Scope                                                                11
         Methodology                                                          11
         Management Control Program Review                                    11
     B. Prior Coverage                                                        13
     C. Projects Reviewed                                                     14
     D. Report Distribution                                                   16

Management Comments
     Department of the Navy                                                   19
Background
    This report is one in a series being issued by the Inspector General of the DoD
    addressing DoD military construction (MILCON) and maintenance, repair, and
    environmental (MR&E) requirements for bulk fuel storage and delivery systems
    infrastructure (storage tanks, pipelines, dispensing facilities, and hydrants). The
    Defense Energy Support Center (DESC), Defense Logistics Agency (DLA), is
    responsible for budgeting and funding MILCON and MR&E projects for DoD
    bulk fuel terminals worldwide.

    In 1991, DoD Program Budget Decision 735 authorized the transfer of
    MILCON funding authority to DLA for fuel-related infrastructure on military
    installations. Actual transfer of the funding responsibilities, however, was
    managed in two phases. The period from 1993 through 1996 was characterized
    by very low fuel-related MILCON expenditures. During that period when the
    Services would have historically expended an average of $66 million per year,
    DLA averaged only $17 million. Low funding levels over an extended period
    of time precipitated infrastructure deterioration to the point where environmental
    issues became a concern. Additionally, the United States military changed from
    a forward-deployed force to one based largely in the continental United States.
    Therefore, an enhanced, en route refueling infrastructure to support worldwide
    deployment of U.S. forces was needed to meet timeline requirements for a two
    major theater war strategy. Consequently, there was a growing demand for
    MILCON and MR&E projects supporting infrastructure.

    In 1997, the Office of the Deputy Under Secretary of Defense (Logistics)
    completed a study on DoD fuels MILCON funding. The study identified
    114 MILCON projects totaling $1.5 billion in fuel-related MILCON
    requirements to meet environmental, operational, and strategic planning
    objectives for the proposed Future Years Defense Program (FYs 1999 through
    2003). During FY 1998 budget considerations, the transfer of MILCON
    authority to DLA created a funding issue because the Defense budget did not
    provide for increased funding for DLA. For FY 2000, DLA funded and
    approved $101.2 million for five projects. For the FY 2001 President’s Budget
    to Congress, DLA programmed 14 projects with an estimated cost of
    $168 million.

    The DESC was responsible for DoD fuel inventory management, including
    procurement and sales, and environmental oversight. DLA funded fuel-related
    infrastructure requirements from two different funding sources. Maintenance
    and repair projects were funded through the Defense Working Capital Fund,
    which is a revolving fund that is continually replenished by a DLA surcharge
    that is added to the sale price of fuel. Renovation and major construction
    projects were funded from the DLA allocation of MILCON appropriations.

    The Military Departments were responsible for operating bulk fuel facilities
    under their cognizance. The Military Departments were also responsible for
    reviewing, validating, and prioritizing MILCON and MR&E projects before
    submitting the projects to the DESC for review and funding approval.


                                         1
Objectives
     The overall objective was to evaluate the accuracy and reliability of DoD
     MILCON and MR&E requirements for bulk fuel storage and delivery systems
     infrastructure. Specifically, this audit evaluated MILCON and MR&E project
     requirements at the Fleet and Industrial Supply Center (FISC) Norfolk,
     Virginia; and the Naval Air Station (NAS) Whidbey Island, Washington. We
     also reviewed the adequacy of the management control program as it applied to
     the audit objective. See Appendix A for a discussion of the audit scope and
     methodology and the review of the management control program. See
     Appendix B for a list of prior coverage.




                                        2
                   Validation of Bulk Fuel Storage Military
                   Construction and Maintenance, Repair,
                   and Environmental Requirements
                   Although the bulk fuel-related MILCON and MR&E projects reviewed
                   were valid requirements, the Navy did not properly validate and
                   prioritize the requirements for each project in accordance with Navy and
                   DoD guidance.

                       •   Personnel at FISC Norfolk properly validated requirements for
                           two MILCON projects, valued at $44.9 million, and 361 MR&E
                           projects, valued at $22.2 million.
                       •   Personnel at NAS Whidbey Island properly validated
                           requirements for two MILCON projects, valued at $24.6 million,
                           but did not validate the requirements for 36 MR&E projects,
                           valued at $6.6 million.

                       •   Major claimant personnel for FISC Norfolk and NAS Whidbey
                           Island stated that they reviewed and approved the requirements
                           for the four MILCON projects, valued at $69.5 million, and the
                           72 MR&E projects, valued at $28.8 million, but could not
                           demonstrate that they properly validated the requirements.

                       •   Navy Service Control Point personnel did not review and validate
                           all Navy bulk fuel-related MILCON and MR&E projects within
                           continental United States, and did not submit a consolidated
                           priority list to the DESC as required by DoD guidance.

                   This condition occurred because the Navy did not adequately implement
                   requirements for reviewing, validating, and prioritizing MILCON and
                   MR&E projects in accordance with Navy and DoD guidance. The
                   absence of validation reviews at each level for all projects increased the
                   risk of the Navy submitting bulk fuel-related MILCON projects that are
                   incorrectly prioritized, and bulk fuel-related MR&E projects with
                   incorrect requirements and priorities to the DESC for funding.




1
    A total of 44 MR&E projects were selected for review at FISC Norfolk. However, 8 of the 44 MR&E
    projects were managed by DESC personnel. The Navy was not responsible for validating requirements
    for projects managed by DESC.



                                                   3
Policy Guidance
    DoD Directive 4140.25, “ DoD Management Policy for Energy Commodities
    and Related Services,” April 20, 1999. DoD Directive 4140.25 prescribes
    DoD policy for energy and related programs (for example, petroleum, natural
    gas, coal, and propellants). Directive 4140.25 states that the programs shall
    support DoD peacetime and wartime missions, and permit successful and
    efficient deployment and employment of forces. Directive 4140.25 also states
    that DoD Components shall minimize inventories consistent with peacetime and
    contingency needs. The Director, DLA plans, programs, and budgets facility
    MR&E compliance of petroleum storage and distribution facilities and
    construction of new permanent storage and distribution facilities. DLA must
    coordinate these functions with the Services and the combatant commanders.
    Directive 4140.25 states that the Military Departments are to operate the
    petroleum facilities under their cognizance.

    DoD 4140.25-M, “DoD Management of Bulk Petroleum Products, Natural
    Gas, and Coal,” June 1994. DoD 4140.25-M implements DoD
    responsibilities for integrated materiel management of bulk petroleum products
    and associated bulk fuel storage facilities. The objective of integrated materiel
    management is to purchase, store, and distribute bulk petroleum products in an
    economic and efficient manner. DoD 4140.25-M states that the Combatant
    Command Joint Petroleum Offices, and the Service Control Points are to review
    and validate MILCON and MR&E projects, as well as develop consolidated
    project priority lists. The Combatant Command Joint Petroleum Offices are
    responsible for overseas projects. The Combatant Command Joint Petroleum
    Offices and the Service Control Points forward projects for consideration and
    consolidate project priority lists to DESC. The DESC reviews, validates,
    programs, and budgets funds for approved projects. DoD 4140.25-M details the
    MILCON and MR&E project submission cycle for DESC.

    Naval Operations (OPNAV) Instruction 11010.20F, “Facilities Projects
    Manual,” June 1996. OPNAV Instruction 11010.20F provides detailed
    guidance for the administration of facilities projects at Navy shore
    organizations. OPNAV Instruction 11010.20F states that the “commanding
    officer is responsible for the validity and accuracy of facilities projects prepared
    for his or her plant account.” Instruction 11010.20F also states that the major
    claimant is responsible for reviewing and validating all projects and that the
    reviews must include verification of the adequacy of the technical solution,
    completeness of the scope and cost estimate, and the adequacy of the economic
    analysis. The major claimant must also retain copies of project documentation,
    correspondence, project validations, approvals, and authorizations in project
    files for at least 5 years.




                                         4
Project Requirements Reviewed
    Personnel at the FISC Norfolk and NAS Whidbey Island approved bulk fuel-
    related requirements for four MILCON projects, valued at $69.5 million, and
    72 MR&E projects, valued at $28.8 million. See Appendix C for the list of
    projects reviewed.

    MILCON Requirements. The FISC Norfolk had requirements for two
    MILCON projects, valued at $44.9 million, and the NAS Whidbey Island had
    requirements for two MILCON projects, valued at $24.6 million.

        FISC Norfolk Projects. Both MILCON projects required replacing the
        existing storage facilities to comply with Federal and State regulations. An
        Environmental Protection Agency storage facility inspection for one
        MILCON project determined that existing storage facilities were out of
        compliance. Both MILCON projects documented requirements for fuel
        storage capacity that was supported by the fuel inventory requirement
        documented in the DESC Inventory Management Plan. The DESC
        personnel stated that the project requirements were accurate and necessary
        to support fuel inventory requirements.

        NAS Whidbey Island Projects. Both MILCON projects required
        relocating existing fuel and storage facilities to meet mission requirements
        for direct fueling 14 aircraft per hour. The NAS Whidbey Island fuels
        manager stated that personnel and aircraft were temporarily redirected to
        other bases to complete training assignments because the NAS Whidbey
        Island did not have the fueling capability required to accomplish its training
        mission. The scope of the MILCON project increased fueling speed, but
        reduced total fuel storage capacity. The fuel storage capacity supported the
        fuel inventory requirement documented in the DESC Inventory
        Management Plan. Excess fuel storage capacity fell within acceptable
        parameters as determined by DESC personnel.

    MR&E Requirements. The FISC Norfolk had requirements for 36 MR&E
    projects, valued at $22.2 million, and the NAS Whidbey Island had
    requirements for 36 MR&E projects, valued at $6.6 million. Project
    requirements were for the following:

             •   Recurring maintenance and environmental issues (5 projects);

             •   Non-recurring safety and environmental issues (39 projects);

             •   Storage and delivery system requirements (7 projects);

             •   Security issues (5 projects); and

             •   Federal, military, and state regulations compliance (16 projects).




                                        5
          Site visits to project locations, project documentation review, and discussions
          with DESC personnel on the scope of the MR&E projects indicated that all
          72 project requirements were necessary, accurate, and reliable.

Requirements Validation
          Navy personnel did not always validate project requirements as required by
          Navy and DoD guidance.

          FISC Norfolk. The FISC Norfolk provided jet petroleum and diesel fuel to
          Navy, Air Force, and Army installations in and around the Norfolk, Virginia,
          area. The Navy Petroleum Office (NAVPETOFF), located at Fort Belvoir,
          Virginia, was the major claimant for the FISC Norfolk. Personnel at the FISC
          Norfolk validated requirements for two bulk fuel-related MILCON and
          36 MR&E projects. Personnel at NAVPETOFF stated that they reviewed and
          approved requirements for the MILCON and MR&E projects at the FISC
          Norfolk, but could not demonstrate that they validated the requirements.

                  Installation Review. OPNAV Instruction 11010.20F states that the
          “commanding officer is responsible for the validity and accuracy of facilities
          projects prepared for his or her plant account.” Installation personnel reviewed,
          approved, and validated two bulk fuel-related MILCON and 36 MR&E project
          requirements as required by OPNAV Instruction 11010.20F. Installation
          engineering personnel were responsible for MILCON and MR&E project
          submissions, and were involved in the project development process from
          conception through design, construction, and maintenance. Installation
          personnel stated that although there was no documented validation process, they
          had documentation to support proper validation of MILCON and MR&E project
          requirements.

                  Installation engineering and Naval Facilities Engineering Command
          personnel stated that they conducted monthly meetings to discuss the scope and
          status of current MILCON and MR&E projects and the need for future projects.
          Electronic messages between installation engineering, Naval Facilities
          Engineering Command, NAVPETOFF, and DESC personnel documented
          coordination of scope changes to the project requirements discussed during the
          monthly meetings. In addition, Naval Facilities Engineering Command
          personnel initiated internal reviews of MILCON and MR&E project
          requirements and cost estimates. One internal review resulted in reducing one
          MILCON project cost estimate from $60.8 million to $40 million. Installation
          engineering personnel completed all MILCON and MR&E project
          documentation and submitted it to the installation fuels director for final review
          and validation. The fuels director reviewed the DD Form 1391s2 and all
          supporting documentation for completeness and accuracy. The fuels director
          stated that he maintained notes from the monthly meetings and reviewed the
          notes and other information from the meetings when performing his final project

2
    DD Form 1391, “FY MILITARY CONSTRUCTION PROJECT DATA,” is the standard form
    prescribed by DoD 4140.25-M for MILCON and MR&E project submission.



                                              6
review and validation. In addition, the fuels director stated that he validated the
MILCON and MR&E project requirements against Navy and DoD guidance.
The fuels director signed the DD Form 1391s to indicate that the project was
validated and approved prior to submitting project packages to the major
claimant.

        Major Claimant Review. OPNAV Instruction 11010.20F states that the
major claimant is responsible for reviewing and validating all projects, including
MILCON and MR&E requirements. Major claimant engineering personnel
stated that they reviewed and approved the FISC Norfolk requirements for the
two MILCON and 36 MR&E projects, but could not demonstrate that they
properly validated the requirements. Major claimant engineering personnel
stated that they validated project requirements by internally discussing the
requirements, but could not provide supporting documentation for the
discussions or for discussion results that affected the projects. OPNAV
Instruction 11010.20F states that the major claimant must retain copies of
project documentation, correspondence, project validations, approvals, and
authorizations in project files for at least 5 years.

         In addition, major claimant engineering personnel did not have a project
file for one of the two MILCON projects and were unable to account for its
absence. Major claimant engineering personnel had project files for one of the
two MILCON projects and for the 36 MR&E projects. The project files
contained documentation submitted by FISC Norfolk personnel, but did not
include any documentation indicating that major claimant personnel reviewed,
approved, or validated the project requirements.

NAS Whidbey Island. The NAS Whidbey Island was the homeport of all
active duty Navy EA-6B aircraft and several P-3/EP-3 aircraft. The
Commander, Naval Air Force, U.S. Pacific Fleet, located at NAS North Island,
was the major claimant for NAS Whidbey Island. Installation personnel
properly validated requirements for two bulk fuel-related MILCON projects, but
did not validate the requirements for 36 MR&E projects. Major claimant
personnel stated that they reviewed and approved requirements for the MILCON
and MR&E projects at NAS Whidbey Island, but could not demonstrate that
they properly validated the requirements.
       Installation Review. Installation engineering personnel were
responsible for MILCON projects, and fuels personnel were responsible for
MR&E projects.

               MILCON Projects. Installation engineering personnel properly
validated requirements for two bulk fuel-related MILCON projects. Installation
engineering personnel stated that although there was no documented validation
process, they had documentation to support proper validation of MILCON
requirements. Installation engineering personnel were involved in the MILCON
requirements process from conception through design, construction, and
maintenance. Installation engineering personnel conducted site reviews and
coordinated with NAVPETOFF personnel to discuss the scope of MILCON
project requirements. Memorandums and electronic messages between
installation, major claimant, NAVPETOFF, and DESC personnel further


                                     7
    documented coordination of MILCON project requirements as they applied to
    the NAS Whidbey Island mission. Other electronic messages indicated that
    installation engineering and DESC personnel coordinated efforts to develop
    more accurate cost estimates. Documented base-level coordination and
    requirements validation efforts resulted in the reduction of two MILCON project
    cost estimates by $12.7 million.

                     MR&E Projects. Installation fuels personnel did not validate the
    requirements for 36 MR&E projects. The NAS Whidbey Island fuels division
    consisted of one fuels manager with responsibility for initiating, processing, and
    prioritizing all MR&E projects. The fuels manager stated that he was not aware
    of any responsibility for validating MR&E project requirements. The fuels
    manager submitted MR&E projects to the installation supply officer for
    approval, not validation, before submitting the project to the major claimant.
            Major Claimant Review. Major claimant fuels personnel stated that
    they reviewed and approved NAS Whidbey Island requirements for
    two MILCON and 36 MR&E projects, but could not demonstrate that they
    properly validated the requirements. Major claimant fuels personnel stated that
    they validated project requirements by internally discussing the requirements
    and coordinating site reviews. However, major claimant fuels personnel could
    not provide documentation of meeting discussions or site review results;
    specifically, no documentation was available to indicate that the projects were
    reviewed and whether project requirements were discussed, modified, reviewed,
    validated, or invalidated as a result of those efforts.

            In addition, major claimant fuels personnel did not have project files for
    16 of the 36 MR&E projects and were unable to account for their absence.
    Major claimant fuels personnel had project files for the two MILCON projects
    and 20 of the 36 MR&E projects. The project files contained documentation
    submitted by NAS Whidbey Island personnel, but did not include any
    documentation indicating that major claimant personnel reviewed, approved, or
    validated the project requirements.

Navy Service Control Point
    Navy Service Control Point personnel did not review, validate, and prioritize
    requirements for all Navy bulk fuel-related MILCON and MR&E projects
    within the continental United States. DoD 4140.25-M designates the
    NAVPETOFF as the Navy Service Control Point and states that the Service
    Control Points are to review and validate MILCON and MR&E projects, as well
    as develop consolidated project priority lists. Specifically, DoD 4140.25-M
    states that it is the responsibility of the Service Control Point to review,
    validate, and prioritize all continental United States Navy bulk fuel-related
    MILCON and MR&E project requirements. As major claimant for all Navy
    Fleet and Industrial Supply Centers, NAVPETOFF personnel were aware of
    their responsibility for project requirements at FISC Norfolk. However,
    NAVPETOFF personnel stated that they were unaware of their responsibility
    for bulk fuel-related MILCON and MR&E project requirements outside the
    Fleet and Industrial Supply Centers, and did not review those project


                                         8
    requirements unless requested by the sponsoring Navy organization.
    NAVPETOFF personnel stated that they received prioritization lists from
    continental United States Navy installations, but did not submit a consolidated
    priority list to the DESC.

Recommendations, Management Comments, and Audit
  Response
    1. We recommend the Commander, Naval Air Station Whidbey Island
    establish procedures to validate bulk fuel-related maintenance, repair, and
    environmental project requirements in accordance with Naval Operation
    Instruction 11010.20F, “Facilities Projects Manual,” June 1996.

    Management Comments. The Navy did not comment on the recommendation.
    We request that the Navy provide comments in response to the final report.

    2. We recommend that the Commander, Naval Air Force, U.S. Pacific
    Fleet establish procedures to implement Naval Operations Instruction
    11010.20F, “Facilities Projects Manual,” June 1996, to demonstrate proper
    review and validation of bulk fuel-related military construction and
    maintenance, repair, and environmental project requirements.

    Management Comments. The Navy did not comment on the recommendation.
    We request that the Navy provide comments in response to the final report.

    3. We recommend that the Commander, Navy Petroleum Office:

           a. As the major claimant for the Fleet and Industrial Supply Center
    Norfolk, establish procedures to document proper review and validation of
    bulk fuel-related military construction and maintenance, repair, and
    environmental project requirements in accordance with Naval Operations
    Instruction 11010.20F, “Facilities Projects Manual,” June 1996.

           b. As the Navy Service Control Point, establish procedures to
    properly review, validate, and prioritize all Navy bulk fuel-related military
    construction and maintenance, repair, and environmental project
    requirements within the continental United States in accordance with DoD
    4140.25-M, “DoD Management of Bulk Petroleum Products, Natural Gas,
    and Coal,” June 1994.

    Navy Comments. The Navy Petroleum Office disagreed with both parts of the
    recommendation. The Navy Petroleum Office stated that Naval Operations
    Instruction 11010.20F was not applicable to fuel-related military construction
    and maintenance, repair, and environmental projects funded by the Defense
    Logistics Agency. The Navy Petroleum Office further stated that it considered
    data call response letters and hard-copies of written or e-mail communications as
    a form of project validation, but stated that retaining written records of
    discussions related to project validation was not realistic because of the
    frequency of discussions. The Navy Petroleum Office stated that future data


                                        9
call response letters would be retained for at least 5 years. The Navy Petroleum
Office disagreed with prioritizing all maintenance, repair, and environmental
projects within the continental United States into one priority list because the
Defense Energy Support Center does not prioritize projects on a single priority
list for the continental United States.

Audit Response. The Navy comments are not responsive. Naval Operations
Instruction 11010.20F states that major claimants are responsible for reviewing
and validating all facilities projects, regardless of costs or method of
accomplishment. The Instruction does not limit the validation requirement to
Navy-funded projects. The Instruction also states that major claimants shall
retain copies of activity project documentation, correspondence, and project
validations, approvals, and authorizations in major claimant project files for at
least 5 years. Although the Navy Petroleum Office stated that it considered
hard-copies of written or e-mail communications as a form of project validation,
Navy Petroleum Office personnel did not provide any written or e-mail
communications to substantiate project validation efforts. Data call response
letters documented project submission to the Defense Energy Support Center for
review and funding consideration but did not demonstrate requirements
validation. Although the report did not recommend retaining written records of
verbal communications related to project validation, the Navy Petroleum Office
needs to identify and establish procedures for documenting proper review and
validation. We also disagree that the Navy Petroleum Office does not need to
prioritize all Navy fuel-related maintenance, repair, and environmental projects
within the continental United States for submission to the Defense Energy
Support Center. DoD 4140.25-M requires that the Navy Petroleum Office, as
the Navy service control point, develop consolidated project prioritization lists
for maintenance, repair, and environmental projects within the continental
United States before submitting them to the Defense Energy Support Center.
DoD 4140.25-M also requires that the Army and Air Force Service Control
Points as well as the Combatant Command Joint Petroleum Offices submit
project prioritization lists to the Defense Energy Support Center, not to the Joint
Staff. We request that the Navy reconsider its position on the recommendation
and provide additional comments in response to the final report. The comments
should identify specific actions that will properly document project validations.




                                    10
Appendix A. Scope and Methodology

Scope
    Work Performed. We reviewed Navy and DoD guidance for reviewing,
    validating, prioritizing, and submitting bulk fuel-related infrastructure project
    requirements and conducted on-site visits to determine whether the guidance was
    adequately implemented. We reviewed documentation from March 1985
    through October 2001 that was used to support current MILCON and MR&E
    projects at FISC Norfolk and NAS Whidbey Island. Additionally, we reviewed
    methods used to prepare supporting documentation for MILCON and MR&E
    project requests at the two installations, at the major claimant responsible for the
    projects, and the Service Control Point.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Infrastructure high-risk area.

Methodology
    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Universe and Sample. We identified the bulk fuel-related MILCON projects
    submitted by the Navy in FY 2001 for the FY 2005 Defense Logistics Agency
    Military Construction Program. We judgmentally selected Navy projects with
    high dollar amounts and high priority status. As a result, we selected two
    MILCON projects, valued at $44.9 million, and 44 MR&E projects, valued at
    $33.3 million, for review at FISC Norfolk and two MILCON projects, valued at
    $24.6 million, and 36 MR&E projects, valued at $6.6 million, for review at
    NAS Whidbey Island.

    Contacts During the Audit. We visited or contacted organizations within
    DoD. Further details are available on request.

    Audit Dates and Standards. We performed this audit from August 2001
    through March 2002 in accordance with generally accepted government auditing
    standards.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,”
    August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996, require DoD organizations to



                                        11
implement a comprehensive system of management controls that provides
reasonable assurance that programs are operating as intended and to evaluate the
adequacy of the controls.

Scope of the Review of the Management Control Program. We reviewed the
adequacy of the Navy management controls over the bulk fuel storage delivery
systems infrastructure MILCON and MR&E projects. Specifically, we
reviewed Navy management controls over the review, validation, and
submission process of bulk fuel infrastructure MILCON and MR&E project
requirements for FISC Norfolk and NAS Whidbey Island projects. We
reviewed management’s self-evaluation applicable to those controls.

Adequacy of Management Controls. We identified a material management
control weakness for NAVPETOFF; Commander, Naval Air Force, U.S.
Pacific Fleet; and NAS Whidbey Island as defined by DoD Instruction 5010.40.
Management controls for MILCON and MR&E projects were not adequate to
ensure that bulk fuel-related MILCON and MR&E project requirements were
adequately reviewed and validated at the Service Control Point, major claimant,
and installation levels, prior to submission to DESC for review and
prioritization. Recommendation 1., if implemented, will establish controls at
NAS Whidbey Island to review and validate bulk fuel-related MILCON and
MR&E project requirements. Recommendation 2., if implemented, will
establish controls at Commander, Naval Air Force, U.S. Pacific Fleet to review
and validate bulk fuel-related MILCON and MR&E project requirements.
Recommendation 3., if implemented, will establish controls at NAVPETOFF to
review, validate, and prioritize all Navy bulk fuel-related MILCON and MR&E
project requirements within the continental United States. A copy of the report
will be provided to the senior official responsible for management controls at
NAVPETOFF; Commander, Naval Air Force, U.S. Pacific Fleet; and NAS
Whidbey Island.

Adequacy of Management’s Self Evaluation. NAS Whidbey Island and
Commander, Naval Air Force, U.S. Pacific Fleet personnel did not perform a
management control review. NAVPETOFF personnel stated that bulk fuel
infrastructure was not an assessable unit and, therefore, did not identify or
report the specific material management control weakness identified by the
audit.




                                   12
Appendix B. Prior Coverage

Inspector General of the Department of Defense
Inspector General DoD Report No. D-2002-077, “Bulk Fuel Infrastructure Military
Construction Project Review Process: Air Force,” April 3, 2002

Inspector General DoD Report No. D-2001-134, “Bulk Fuel Infrastructure Military
Construction Project Review Process: Pacific,” June 4, 2001

Inspector General DoD Report No. D-2001-104, “Bulk Fuel Related Projects at Naval
Station Rota and Moron Air Base, Spain,” April 19, 2001

Inspector General DoD Report No. D-2001-040, “Bulk Fuel Infrastructure
Maintenance, Repair, and Environmental Project Review Process: Pacific,”
January 30, 2001

Inspector General DoD Report No. D-2001-006, “Bulk Fuel Storage Requirements for
Maintenance, Repair, and Environmental Projects at Fort Hood, Texas,”
October 23, 2000

Inspector General DoD Report No. D-2001-003, “Bulk Fuel Storage and Delivery
Systems Infrastructure Requirements for Japan,” October 13, 2000

Inspector General DoD Report No. D-2000-164, “Bulk Fuel Storage and Delivery
Systems Infrastructure for Yakima Training Center, Washington,” July 20, 2000




                                        13
Appendix C. Projects Reviewed
FISC Norfolk. We reviewed two MILCON projects, valued at $44.9 million, and
36 MR&E projects, valued at $22.2 million.
                                                                           Value
 MILCON Projects
 P-444, “Replace Fuel Tankage, Phase III”                             $39,892,000
 P-445, “Replace Truck Fill Stand and Lube Oil Tanks”                   4,983,000
  Total                                                               $44,875,000

 MR&E Projects
 NRF 95-04, “Engineering Inspection of Tanks”                         $01,517,000
 NRF 97-26, “Repair Fire Protection System”                               950,000
 NRF 97-36, “Spill Cleanup Reimbursement”                                  14,000
 NRF 97-39, “Install Monitoring Wells at Tank 275 Area”                    50,000
 NRF 97-44, “Repair Leak Detection on Tanks 472-475”                      173,000
 NRF 97-45, “Tightness Test Jet Petroleum 5 Line”                          84,000
 NRF 98-46, “Provide Oil/Water Separator for Tanks 1-20”                  530,000
 NRF 99-07, “Repair POL Lines at Pier 12”                                 776,000
 NRF 99-10, “Repair Underground Storage Tank 204”                         560,000
 NRF 99-26, “Repair POL Line Between Piers 20 and 21”                      87,000
 NRF 99-29, “Repair Tank 144”                                             369,000
 NRF 99-30, “Repair Containment Berms”                                  1,877,000
 NRF 00-09, “Repair Tank 145”                                             168,000
 NRF 00-10, “Replace Fuel Pumps W-69”                                     790,000
 NRF 00-12, “Repair POL Lines at Pier 10”                               1,020,000
 NRF 00-17, “Repair Building CI-288”                                      443,000
 NRF 00-23, “Replace HVAC System at Fuel Lab, Building W-388”             173,000
 NRF 00-25, “Repair Pump to Tanks 13-16”                                  447,000
 NRF 00-26, “Clean/Abandon Piping”                                        636,000
 NRF 00-28, “Repair Transportation Piping”                                925,000
 NRF 01-06, “Repair POL Lines at Causeway and Pier”                     2,610,000
 NRF 01-07, “Lighting Survey”                                              25,000
 NRF 01-09, “Replace Valves”                                              430,000
 NRF 01-13, “Pressure Test Petroleum, Oil, and Lubricant Pipelines”       237,000
 NRF 01-17, “Repair Aboveground Storage Tank 110”                         230,000
 NRF 01-18, “Replace Expansion Joints and Fenders, Piers C and D”         612,000
 NRF 01-19, “Replace JP-5 and Sludge Pumps, Building W-61”                490,000
 NRF 02-01, “Modify Truck Defueling System”                               390,000
 NRF 02-02, “Modify Barge Defueling System”                               430,000
 NRF 02-05, “Preventive Maintenance/Repair, Marine Loading Arm”            81,000
 NRF 02-08, “Replace 14-inch Plug Valves”                                 749,000
 NRF 02-09, “Repair Roadways”                                             757,000
 NRF 02-10, “Dredge Fuel Piers”                                         1,842,000
 NRF 02-13, “Modify Valves and Strainers at Pier C”                       470,000
 NRF 02-14, “Replace Valve Pits at Pier 5”                                861,000
 NRF 02-18, “Install Stripper System at Pier D”                           350,000
  Total                                                               $22,153,000


                                           14
NAS Whidbey Island. We reviewed two MILCON projects, valued at $24.6 million,
and 36 MR&E projects, valued at $6.6 million.
                                                                                Value
 MILCON Projects
 P-157, “Aircraft Direct Refueling Facility”                               $09,100,000
 P-162, “Aircraft Ready Fuel Facility”                                      15,500,000
  Total                                                                    $24,600,000

 MR&E Projects
 WHI 97-02, “Pipeline Leak Detection”                                       $0,126,000
 WHI 97-07, “Eight-Inch Pipeline Surge Control”                                151,000
 WHI 97-08, “Install Fuel Pier Gangway”                                        108,000
 WHI 98-01, “Repair Tank 236”                                                  508,000
 WHI 98-03, “Flight Line Hot Pit”                                              489,000
 WHI 98-10, “Install Diesel Dispenser Unit at Building 2702”                    72,000
 WHI 98-12, “Update Spill Prevention Control and Counter Measure Manual”       100,000
 WHI 99-02, “Metal Loss Detection Tool Inspection, Four-Inch Pipeline”         587,000
 WHI 99-03, “Replace Oil/Water Separator Pumps in Fuel Farm 2”                  67,000
 WHI 00-01, “Tightness Testing Fuel Tanks”                                     180,000
 WHI 00-02, “Recurring Maintenance”                                             30,000
 WHI 00-05, “Replace Pier Riprap”                                               29,000
 WHI 00-06, “Recurring Environmental Costs”                                     19,618
 WHI 00-07, “Repair Fuel Pier Office, Leak Detection System”                    10,000
 WHI 00-08, “Install Three Phase Protection System for Pumps”                   13,000
 WHI 00-09, “Berm Drain Fuel Farm 2”                                            39,000
 WHI 01-01, “Recurring Maintenance”                                             55,480
 WHI 01-02, “Replace Pipeline OCV Valves”                                       11,000
 WHI 01-03, “Fuel Pier Repairs”                                                320,000
 WHI 01-04, “Install Lighting in Fuel Farms”                                   420,000
 WHI 01-05, “Fuel Lab Extension”                                                38,000
 WHI 01-06, “Automated Fuel Handling System”                                 1,980,000
 WHI 01-07, “Recurring Environmental Costs”                                     19,618
 WHI 01-08, “Prepare POL Operation and Maintenance Manual”                     185,000
 WHI 01-09, “Hydrostatic Testing of Fuel Facilities Piping”                     27,000
 WHI 02-01, “Hydrostatic Testing of Fuel Facilities Piping”                     27,000
 WHI 02-02, “Recurring Maintenance”                                             91,000
 WHI 02-03, “Install Flame Arrestors”                                           84,000
 WHI 02-04, “Replace Aviation Fuel Tank Gaskets”                                31,000
 WHI 02-05, “Fuel Causeway Fence”                                               76,000
 WHI 02-06, “Fuel Farm 1 Fence”                                                182,000
 WHI 02-07, “Area Fence Between Fuel Farms 1 and 2”                            142,000
 WHI 02-08, “Fuel Farm 2 Fence”                                                229,000
 WHI 02-09, “Install Fence Around A/C Refueler Truck Lot”                      126,000
 WHI 02-10, “Asphalt Roadway Between Fuel Farms 1 and 2”                        57,000
 WHI 02-11, “Modify Electric Start on Tank 361 Transfer Pump”                   19,000
  Total                                                                     $6,648,716




                                               15
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Installations)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Navy Petroleum Office
Commander, Naval Air Force, U.S. Pacific Fleet
Commander, Naval Air Station Whidbey Island

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Defense Organization
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget




                                         16
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         17
Department of the Navy Comments




                    19
20
Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing of the Department of Defense prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report are
listed below.

Garold E. Stephenson
William C. Gallagher
Deborah L. Carros
James E. Miniter
Robert E. L. Smith
Todd L. Truax
Kimberly M. Haines
Deana M. Wyatt
